                               OFFICE OF INSPECTOR GENERAL
                                       MEMORANDUM



  DATE:    August 10, 1998

    TO:    Chairman

  FROM:    Inspector General

SUBJECT:   Final Report on the Follow-up Audit of the FCC Auctions
           Cost Recovery System

Attached please find a copy of the subject audit report. The
primary objectives of this audit were (1) to follow-up upon the
status of the four recommendations contained in OIG Audit Report
No. 95-6 entitled "Spectrum Auction Implementation Cost Audit,"
issued on March 18, 1996 and, (2) ascertain the timeliness,
accuracy and functionality of the cost accounting methodology now
in place.

The auditors identified that the four aforementioned
recommendations had been fully adopted with resulting improvement
to the cost accounting methodology. This improvement was most
notable with regard to retention of supporting documentation for
auction labor and equipment expenditures.

This report also contains two new recommendations pertaining to
the auction cost accounting system. OIG auditors reported that
FCC bureau and offices were not consistently charging auction
cost codes for labor hours expended on auction related tasks to
the financial detriment of the Commission. In addition, the FCC
did not update applicable auction guidelines and procedural
manuals to reflect the migration of the FCC from the National
Finance Center financial system to that of the Federal Financial
System. Management concurred with both recommendations and
initiated appropriate action to address both recommendations.



                                    H. Walker Feaster III
Attachment
cc: Chief of Staff
     Managing Director
     Chief, WTB
                 REPORT ON THE FOLLOW-UP AUDIT OF THE

                  FEDERAL COMMUNICATIONS COMMISSION

                    AUCTIONS COST RECOVERY SYSTEM




                        Table of Contents

                                                            Page

EXECUTIVE DIGEST ............................................   1

AUDIT OBJECTIVE .............................................   1

AUDIT SCOPE .................................................   2

BACKGROUND ..................................................   3

OTHER MATTERS TO BE REPORTED ................................   5

CONCLUSION AND FINDINGS .....................................   6

RECOMMENDATIONS/MANAGEMENT RESPONSE .........................   8
APPENDIX - Response to the Draft Audit Report
           From the Managing Director ....................... 10
                           EXECUTIVE DIGEST

As a result of our audit, we determined that FCC management
adopted the corrective measures enumerated in our March 18, 1996
audit report. On January 1, 1996, the Associate Managing
Director, Performance Evaluation and Records Management (PERM),
closed-out the audit recommendations as completed in the
Commission’s audit recommendation tracking system.

During the conduct of this follow-up audit, the auditors
identified two conditions that warranted audit recommendations
for corrective action as follows:

    •   FCC management did not update its FCC Auction Cost Recovery
        Guidelines and Procedures manual (Guidelines) to reflect the
        Commission's 1996 change from the National Finance Center
        (NFC) system to the Denver Administrative Service Center
        Federal Financial System (FFS); and,

    •   FCC Bureaus and Offices were not consistently charging
        Auctions for auctions related work performed by their
        employees.

Additionally, the OIG identified that the Commission’s method for
allocating costs to cost objectives through its Cost Reporting
System (CRS) caused a disproportionate share of “leave taken”
costs to be charged for reimbursement from Spectrum Auctions
revenues. Management concurred with the OIG finding and
implemented appropriate corrective action during the conduct of
the audit. Therefore, no audit recommendation is addressed in
this report.
                            AUDIT OBJECTIVE

The primary objective of the audit was to re-examine the FCC ACRS
in order to determine whether management corrected the
deficiencies reported in the OIG's, “Audit of Fiscal Year 1994
Spectrum Auction Implementation Cost Report,” dated March 16,
1996. In that report, the OIG recommended that the Managing
Director:

•   Formally document the policies and procedures for creating,
    approving, processing, recording, and reporting auctions
    related expenditures;

•   Review all audit questioned labor costs and determine the
    appropriate treatment for those costs;

•   Review all audit questioned automation costs and determine the
    appropriate treatment for those costs; and,

                                   1
•   Review its auction automation contracts to determine whether
    contractor provided cost reports separately report auction
    cost information.

To accomplish our objective, we: (1) sampled reported cost
elements and reviewed pertinent supporting documentation; (2)
verified cost payment through the accounts payable system; (3)
verified the accuracy of reported Bureau/Office reimbursements;
(4) interviewed employees and managers involved in auction cost
collection, recording, and reporting; and, (5) reviewed the FCC's
new managerial cost accounting system, the CRS.
                            AUDIT SCOPE

Except as noted in the last paragraph of this section, we
conducted our audit in accordance with generally accepted
government audit standards (GAGAS). Those standards require that
we plan and perform the audit to obtain reasonable assurance
about whether the ACRS is free of material misstatement. An
audit includes:

•   Assessing control risk to use as a basis for planning the
    nature, timing, and extent of testing;

•   Examining, on a test basis, evidence supporting the amounts
    and disclosures in the data and records reviewed;

•   Assessing the accounting principles used and significant
    estimates made by management;

•   Evaluating the overall data and records presentation;

•   Obtaining an understanding of the ACRS; and

•   Determining if the internal controls are adequate and in
    operation.

We evaluated the ACRS using the applicable requirements contained
in:

•   47 USC ∋309(j), Communications Act of 1934, as amended by the
    Omnibus Budget Reconciliation Act of 1993;

•   Auction Cost Recovery Guidelines and Procedures; and

•   Statement of Federal Financial Accounting Standards (SFFAS)
    No. 4, Managerial Cost Accounting Concepts and Standards for
    the Federal Government.

                                 2
The scope of our audit was limited to reviewing auction costs
reported in FY 1997 and FY 1998 year to date through March 31,
1998. Additionally, the audit was limited to a review of
unallocated and allocated reimbursable costs charged against
Spectrum Auction revenues and did not encompass an in depth
examination of the CRS.
                             BACKGROUND

Congress authorized the FCC to recover costs of developing and
implementing spectrum auctions by retaining auctions revenues as
an offset when it amended the Omnibus Budget Reconciliation Act
of 1993 on August 10, 1993.1 To support the resulting spectrum
auctions program and encourage Commission development of strong
financial management controls over this program, the OIG
conducted the Spectrum Auction Implementation Cost audit of FY
1994 auction costs and issued a final report to the Chairman on
March 18, 1996. In that report, OIG auditors cited three
conditions with the following recommendations for the Managing
Director to:

•   Formally document the policies and procedures for creating,
    approving, processing, recording, and reporting auctions
    related expenditures;

•   Review all audit questioned labor costs and determine the
    appropriate treatment for those costs;

•   Review all audit questioned automation costs and determine the
    appropriate treatment for those costs; and,

•   Review its auction automation contracts to determine whether
    contractor provided cost reports separately report auction
    cost information.
Management concurred and responded to the audit recommendations
by reviewing each questioned personnel compensation and
automation cost for accuracy and appropriate treatment and
modifying all automation contracts requiring contractors to
separately report auction cost information. Management also
responded to the OIG’s preliminary audit findings by issuing its
"Auction Cost Recovery Guidelines and Procedures" in July 1995.


     1
       47 USC ∋309(j)(8)(B), Retention of Revenues, authorized the
Commission to "retain as an offsetting collection such sums as may
be necessary from such proceeds for the costs of developing and
implementing the program required by this subsection."


                                 3
In addition, management reported that the Commission changed from
the National Finance Center (NFC) financial accounting and
reporting system to the Federal Financial System (FFS). On
October 1, 1995, the FCC implemented its new formal cost
accounting system, the CRS. The FFS system permits the
Commission to establish specific charge codes for employees to
directly charge their labor to projects, such as Auctions. The
CRS:

•   Accumulates unallocated FFS data by cost code (codes beginning
    with "A" for auctions and "N" for non-auctions direct
    projects);

•   Allocates costs identifiable to two or more final cost
    objectives (e.g., 51S51 for Auctions) to projects using a
    causal beneficial basis, such as direct labor dollars or
    hours; and,

•   Allocates indirect costs for overall Commission operation and
    management (e.g., administrative costs, such as the Chairman
    and Commissioner's costs) to final cost objectives using a
    causal beneficial basis, such as total direct and allocated
    project costs.

Management also designed the CRS to report cost data for FCC
organizations in cost and full time equivalent (FTE) reports to
its users, primarily the: System Administrator, OMD Cost Data
Viewer, and Bureau Cost Data Viewer.

The FCC implemented the CRS to serve as a tool for the Commission
to achieve cost effective mission performance and provide full
accountability for taxpayer resources and comply with legislative
mandates2 and Federal requirements3.
     2
     The Chief Financial Officers (CFO) Act of 1990 prescribes
that an agency's CFO should develop and maintain an integrated
accounting and financial management system that provides for the
development and reporting of cost information.

     The Government Performance and Results Act (GPRA) of 1993
requires federal agencies to report annually on actual performance
compared to its annual performance plan and five-year strategic
plan goals.

     The Federal Financial Management Improvement Act (FFMIA) of
1996 requires agencies to incorporate accounting standards and
reporting objectives into their financial management systems so
that all assets, liabilities, revenues, and expenses of programs
and activities can be consistently and accurately recorded,
monitored, and uniformly reported throughout the federal
government.

                                 4
                   OTHER MATTERS TO BE REPORTED

As part of our follow-up audit, we reviewed the costs accumulated
and allocated to Auctions by the CRS in FY 1997 through March 31,
1998. We found that, overall, the Commission’s CRS complies with
the managerial cost accounting system requirements prescribed by
the Joint Financial Management Improvement Program (JFMIP)4.
However, during the course of our review, we found that the
Commission’s method for allocating costs to cost objectives
caused auctions to receive a disproportionate share of “leave
taken” costs. For example, in FY 1997 the New Media Division –
Television (Code 0610), Mass Media Bureau, provided $2,494.96 in
labor with $6,562.91 of leave taken costs allocated to Spectrum
Auctions. This amounted to a 263% leave taken allocation
percentage of labor charged to auctions. In other words, for
each $1.00 of labor submitted to auctions on a reimbursable basis
by this Division in FY 1997, $2.63 in leave costs was also
reimbursed by auction funds.

After reviewing this CRS leave taken allocation methodology with
OMD Financial Operations Division (FOD) personnel, we found that
the CRS excluded labor charged to the Commission’s “N37” Source
Project Code (non-auctions – Other) from the “Leave Taken”
allocation base.

In response to this finding, OMD-FOD officials immediately
addressed the problem by changing the CRS “Leave Taken”
allocation base to include labor charged to the N37 Source
Project Code and restated the FCC FY 1998 cost reports from
October 1997 through March 1998, using the new allocation
methodology. This change resulted in reducing FY 1998 leave
taken costs claimed against auction revenues by $65,006.

As stated in the scope paragraph, we limited our CRS review to
reimbursable costs charged against auction revenues and did not
perform an in depth examination of the Commission’s CRS.



    3
     OMB and GAO issued Statement of Federal Financial Accounting
Standards (SFFAS) No. 4, Managerial Cost Accounting Concepts and
Standards for the Federal Government in July 1995 and required
federal entities to implement these managerial cost accounting
standards by October 1, 1997.
4
  JFMIP was statutorily authorized by the Budget and Accounting
Procedures Act of 1950 (31 USC 65) and is a joint and cooperative
undertaking of the U.S. Department of the Treasury, the General
Accounting Office, the Office of Management and Budget, and the
Office of Personnel Management.

                                5
                      CONCLUSION AND FINDINGS

Office of Inspector General (OIG) auditors found that, overall,
FCC management adopted the corrective measures enumerated in its
March 18, 1996 audit report. However, as a result of the OIG
follow-up audit, we identified the two following areas where
improvements can be made to enhance the system’s integrity and
provide more useful cost information to management:

1. FCC management never updated the FCC Auction Cost Recovery
   Guidelines and Procedures manual (Guidelines) to reflect the
   Commission's October 1, 1995 change from the NFC to the FFS
   financial accounting and reporting system.

  An internal control system’s policies and procedures must
  provide users with current, accurate, and complete guidance
  before it can be effective. The existing Guidelines are not
  current as they still require employees and managers to:

  •   Complete Form A-78’s when requesting reimbursable auction’s
      services, equipment, supplies, etc. Under the FFS system,
      requestors complete “AQs” for reimbursable auction’s goods
      and services, not A-78’s.

  •   Accumulate and report all auction activity labor hours to
      the Office of Associate Managing Director for Operations
      (AMD-O) on a bi-weekly basis. Under the FFS system,
      Commission employees charge specific codes on their bi-
      weekly time and attendance reports for Auction activities,
      which are directly input into the FFS system by Bureau and
      Office administrative personnel.

2. The OIG used the Commission’s FFS labor reports for FY 1998 to
   identify FCC employees who worked on auction billable projects
   during the period encompassed within the scope of our audit.
   We randomly and judgmentally selected sixteen non-Auctions
   Division FCC employees from pay periods 2 and 3 (January 18
   through February 14, 1998) to interview about their
   reimbursable auction labor charging practices. We interviewed
   each of the sixteen employees in order to identify what
   project they specifically worked on, how they kept track of
   their hours, and whether they obtained supervisory approval to
   work on auctions projects.

  Of the sixteen employees interviewed, we found that two
  employees recorded their hours under the old NFC “91N37”
  charge code and one employee did not charge an auctions cost
  code even when performing tasks for the Auctions Division.

  The employees charging the “91N37” cost code stated that their
  labor charging system had not been changed to reflect the FFS

                                 6
auctions charge codes. The employees’ supervisor confirmed
this and stated that they will be updating their Branch’s
labor reporting system by July 31, 1998.

When the one employee was asked why she did not charge
Auctions cost codes for Auctions related work, the employee
responded that she had transferred from the Auctions Division
in mid-January 1998 and began charging her new Division’s cost
code even though she was still performing Auctions Division
work. The employee stated that she plans to talk to
management about charging auctions charge codes for auctions
related work.

Also, several of the sixteen interviewed employees stated that
they tended to undercharge the labor hours they charge to
auctions, primarily by conservatively estimating the
percentage of time they spend on auctions related matters.
During our meetings with both employees and supervisors, we
discussed possible methods for more accurately accounting for
their auctions work, including informally exception reporting
on their calendars. For example, if employees primarily work
on non-auctions related matters, they would only record
auctions related hours spent each day on their calendar.
Conversely, if they worked primarily on auctions matters, they
would only record the non-auctions effort each day.


Accurately reporting auctions effort is important not only for
compliance with 47 USC ∋309(j)(8)(B), but also for budgeting
purposes. Beginning with FY 1998, the WTB Auctions Division
was required to prepare annual budgets for the Commission’s
estimated annual reimbursable auction expenditures.
Accordingly, it is critical for Commission employees and
management to accurately account for any auctions related
activities. In fact, on June 12, 1998, after completion of
our audit fieldwork and in response to a detailed memorandum
detailing the OIG’s audit findings, the Managing Director
issued a Time and Attendance Reporting e-mail to all
headquarters personnel. This e-mail reminded FCC employees of
the importance of accurately reporting all hours worked by
project and budget activity and provided detailed guidance for
Spectrum Auction time reporting.




                             7
                  RECOMMENDATIONS/MANAGEMENT RESPONSE

The OIG recommends that the Managing Director and WTB Chief:
Recommendation 1 of 2

Update the Commission’s “Auction Cost Recovery Guidelines and
Procedures” manual by deleting the old NFC requirements and
incorporating the FFS requirements.

Management Response: The Managing Director concurs with this
finding and recommendation and has begun updating the FCC Auction
Cost Recovery Guidelines Procedures Manual. These updates will
reflect all policy and procedural changes. The Managing Director
anticipates completing the updates in mid-August 1998.
Recommendation 2 of 2

Instruct FCC management and supervisors to review the projects
they assign to each of their employees. If determined that any
of the work relates to Spectrum Auctions, managers and
supervisors should insure their employees charge the appropriate
auction codes.

Management Response: The Managing Director and Chief WTB concur
with this finding. To address this issue, OMD and WTB initiated
the following respective actions:

     •   OMD

         •   Issued e-mails to Commission supervisory staff and
             employees reminding them of their responsibilities for
             reliable time and attendance reporting and accurate
             record keeping;

         •   Training new employees on Commission procedures for
             accurate time reporting by project and budget activity
             during new employee orientation training sessions; and,

         •   Tasking Human Resources to prepare a time and
             attendance training module for FCC supervisors.

     •   WTB

         •   Held an all-hands meeting with the Managing Director,
             WTB front office and senior management to explain the
             time and attendance deficiencies and instruct staff to
             examine and correct their time and attendance
             reporting;


                                   8
•   Began providing quarterly reports to all WTB senior
    managers to ensure that all corrective measures
    continue; and,

•   Began providing training for supervisors and
    timekeepers where needed. The first session for
    supervisors was held on Tuesday, July 7, 1998.




                          9
